No.

INTHE
SUPREME COURT OF THE UNITED STATES

*** ;
i

Karen Movnihan - PETITIONER
(Your Name)

ijt

vs.
The West Chester Area School District - RESPONDENT
PROOF OF SERVICE
i

I, Karen Movnihan
________ , do swear or declare that on this
date, October 30._____
.,2020, as required by Supreme Court Rule 291
have served the enclosed MOTION FOR LEAVE TO PROCEED INFORMA
PA UPERISand PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as followsSweet. Stevens. Katz & Williams LLP
Justin D. Barbetta Esq.. PA318221
331E. Butler Avenue. P.O. Box 5069
New Britain- PA 13901
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

October 30

2020

